               Office of Audits
               Office of Inspector General
               U.S. General Services Administration



    DATE:            August 13, 2014
    TO:              Denise L. Pease
                     Regional Administrator
                     Northeast and Caribbean Region (2A)

    FROM:            Steven Jurysta
                     Regional Inspector General for Auditing
                     Northeast and Caribbean Region Audit Office (JA-2)
    SUBJECT:         Award and Administration of Task Order GS-P-02-10-PE-5078 for
                     Construction Services in Support of the American Recovery and
                     Reinvestment Act of 2009 at the Joseph P. Addabbo Federal Office
                     Building in Jamaica, New York
                     Audit Memorandum Number A090184-75

As part of our oversight of GSA American Reinvestment and Recovery Act of 2009
(Recovery Act 1) projects, we identified areas of concern that we would like to bring to
your attention. Specifically:

          (1) The project’s bonding requirements were inadequately administered;
          (2) The Schedule of Values was inappropriately modified;
          (3) An unpriced modification was improperly used;
          (4) The photovoltaic inverter was not compliant with the Buy America Act;
          (5) GSA erroneously declared that the contractor met its substantial completion
              date;
          (6) Certified payrolls were inaccurate; and
          (7) Several subcontractor employees did not have appropriate security
              clearances.



1
 The Recovery Act provided GSA with $5.5 billion for the Federal Buildings Fund. In accordance with the
Recovery Act, the GSA PBS issued funds to convert federal buildings to High-Performance Green
Buildings, as well as construct federal buildings, courthouses, and land ports of entry. The Recovery Act
mandated that $5 billion of the funds be obligated by September 30, 2010, and the remaining funds by
September 30, 2011. The GSA Office of Inspector General is conducting oversight of the projects funded
by the Recovery Act. One objective of this oversight is to determine if PBS is awarding and
administrating contracts for limited scope and small construction and modernization projects in
accordance with prescribed criteria in the Recovery Act.


                                               1
On March 30, 2010, PBS awarded Task Order GS-P-02-10-PE-5078 to Rome
Management Associates, L.L.C. (Rome) for the “Design Build and Installation of a
Utility-Interactive Photovoltaic System with a New Cool Roofing System” at the Joseph
P. Addabbo Federal Office Building in Jamaica, New York. The task order, for a firm-
fixed price of $3,047,305, was awarded against Rome’s Term Design Build Multiple
Award Indefinite Quantity Contract Number GS-02P-08-PED-0067.

Inadequate administration of project bonding requirements
GSA did not adequately administer the bonding requirements associated with this
project. The contracting officer did not prepare a required bid guarantee waiver, the 15-
day requirement to furnish performance and payment bonds was not enforced, and the
contractor overbilled the Government for its bond premiums. As a result, the
Government’s interests were not adequately protected and the project was delayed.

A bid guarantee waiver was not prepared as required by Federal Acquisition
Regulation (FAR) 28.101. A bid guarantee is a form of security assuring that the
bidder will not withdraw a bid and will execute a written contract and furnish the required
bonds. Although the Solicitation, Offer, and Award (Standard Form 1442) for the
photovoltaic project, dated February 19, 2010, indicated that a bid guarantee was not
required, a waiver of this requirement was not prepared as required by FAR 28.101-1,
which states:

       (c) The chief of the contracting office may waive the requirement to obtain
       a bid guarantee when a performance bond or a performance and payment
       bond is required if it is determined that a bid guarantee is not in the best
       interest of the Government…Class waivers may be authorized by the
       agency head or designee.

According to the contracting officer, there was no bid bond required because this was
an accelerated procurement. 2 As such, the contracting officer determined that it was
not feasible to make an award by March 31, 2010, and also require Rome to procure
the Performance and Payment bonds, in addition to a bid bond, in time. However, due
to an “oversight,” no waiver was prepared. Consequently, the justification and approval
for the waiver of the bid bond requirement was not documented.

The requirement to furnish performance and payment bonds within 15 days of
award was not enforced. Rome did not secure the required Performance and
Payment Bonds until August 23, 2010, more than 4 months after Rome was notified of
the contract award. The terms of its contract mandate that the bonds be executed
within 15 days of award.

2
  The prevailing mindset of the contracting staff at the time was that management wanted Recovery Act
projects awarded quickly. This was borne out in a statement made by the Acting Commissioner of GSA’s
PBS to the House Committee on Transportation and Infrastructure on July 31, 2009, regarding GSA’s
implementation of the Recovery Act. Under the category of “Accelerated Procurement,” the Acting
Commissioner asserted that GSA is “taking specific actions to accelerate the award and execution of
contracts….”


                                             2
GSA’s award notice to Rome, dated April 16, 2010, instructed Rome that “in accordance
with the terms and conditions of your contract, you must complete the enclosed
Performance and Payment Bond forms and return them to this office within 15 calendar
days.”

On May 13, 2010, the contracting officer again requested the bonds through an e-mail.
Rome responded the same day, stating that the bonds should be received by the end of
the next week. After a series of additional e-mails in May, June, July, and August,
Rome finally provided the required bonding. The bonds were executed on August 23,
2010, and accepted by GSA on August 31, 2010.

In this case, GSA did not properly enforce the bonding requirement. This issue was
compounded because the bid bond was waived. Once the 15-day timeframe passed,
there was no bid bond to guarantee the furnishing of the performance and payment
bonds, so the Government was left unprotected. Without the protection of the bid bond,
it was incumbent on the contracting staff to enforce the 15-day requirement. Ironically,
the bid bond was waived because this was considered an accelerated procurement;
however, GSA’s actions were certainly at odds with the need for an accelerated
procurement.

Rome overbilled GSA $15,797 for its bond premiums. Rome’s task order includes a
scheduled value of $74,000 for bonding costs. This amount agrees with the amount
included in the Cost Breakdown of Rome’s bid. In its first Application and Certificate for
Payment, for the period ending September 30, 2010, Rome certified that its bonding
costs were complete and billed GSA for the full $74,000 (the actual amount invoiced
and paid was $66,600, which was net of 10 percent retainage: $74,000 - $7,400 =
$66,600).

However, the Special Conditions section of Rome’s contract includes the following:

      5.4 BONDS
      1) The solicitation shall require the submission of performance and
      payment bonds as follows:
        (a) Performance and payment bonds shall be required for each
        individual delivery order as awarded…
        (b) Offerors shall include bond premiums in their price and must
        provide receipts. (emphasis added)

In light of this requirement, we reviewed the actual bond premiums paid by Rome and
its subcontractor, Barrett, Inc. As indicated in Figure 1, the actual bond premiums paid
totaled only $58,203.




                                        3
                            Figure 1 - Bond Premium Invoices

            Invoice Date        Customer      Contract Amount     Bond Premium
           8/23/10         Rome Management          $3,047,305           $47,068
           8/24/10         Barrett, Inc.              1,305,000           11,135
                            Total Bond Premiums                          $58,203

Therefore, Rome has overbilled GSA $15,797 for its bonding costs ($74,000 - $58,203).
The contracting officer’s representative approved the payment to Rome based on the
scheduled value of $74,000, rather than requiring Rome to submit the underlying
premium invoices in accordance with the contract.

In her response, dated June 23, 2014, the Regional Administrator acknowledged the
issues related to the project’s bonding requirements and that they do “not represent
GSA’s normal business practice.” She acknowledged that the reason for waiving the
bid guarantee “was erroneously omitted” from the project file, “there is no justification for
not enforcing the 15 calendar day requirement for furnishing of the bonds,” and “the
bond premium should have been lowered, but GSA failed to require a copy of the bond
receipt….”

Inappropriate modification to Schedule of Values
GSA approved a modification to Rome’s Schedule of Values (SOV) that effectively
resulted in an advance payment. The initial SOV was included in Rome’s first invoice to
GSA, dated September 20, 2010. Rome submitted a revised SOV on March 22, 2011,
which included substantial line item revisions, although the bottom line remained
unchanged.

Essentially, Rome shifted $132,000 of direct work from four line items to a new line item
called "General Requirements." Rome explained that this was necessary in order to
recognize "elevated upfront costs," including paperwork, security requirements, and
subcontractor coordination. Rome claimed that these costs had been included as an
allocation to the other line items.

Rome submitted another revision, dated March 23, 2011, which transferred $146,210 of
direct work to the new General Requirements line item. This time the shift affected
most of the direct construction line items, which were reduced by approximately 5
percent in order to fund the General Requirements line item. The file does not
document any discussions between GSA and Rome regarding this second revision.

At first, GSA rejected Rome's invoice (including the revised SOV) "due to the inaccurate
and incomplete project schedule/workplan." Rome then submitted a schedule that
included a General Requirements line item. This item showed a start date of
October 22, 2010, and a finish date of October 10, 2011. GSA ultimately approved
Rome's invoice on April 19, 2011. The amount approved included 50 percent of the
General Requirements amount, or $73,105. The record does not explain the basis used




                                          4
to accept 50 percent completion of this line item. 3 In fact, the Inspection Report was not
in the file for this payment.

We have three concerns with this transaction. First, the manner in which the SOV was
modified did not follow the SOV approval process. A modification to this schedule
should at least be properly documented, explained, and justified. As indicated earlier,
the contract file was lacking in this regard.

Second, since the General Requirements line item was derived from the construction
line items, it may have been inappropriate to approve this payment prior to the
Construction Notice to Proceed. Although the Design Notice to Proceed on this contract
was effective October 22, 2010, the Construction Notice to Proceed was not effective
until May 3, 2011. This payment was approved and paid on April 19, 2011, prior to the
Construction Notice to Proceed when only design work was billable.

Finally, this appears to be a case of either front-loading or advance payments, both of
which are improper.       Amounts originally approved for construction work were
transformed to be indirect costs. This requirement was not identified in the contractor's
proposal, was not incorporated in the initial SOV, was not evaluated by inspection, and
the amount appears to have been derived arbitrarily, based on Rome's assertion of
"elevated upfront costs."

In her response, the Regional Administrator disagreed that the modification to the SOV
was inappropriate, although she acknowledged that “the file should have had an
explanation of the SOV revision.” According to the response:

    Initially, the contractor did not have a general conditions line item in the SOV and subsequently
    realized it was needed to cover typical costs such as securing clearances, its site office, and
    the superintendent and Project Manager's salaries which it was incurring, but could not charge
    to other line items in the SOV. The contractor provided a written request to modify the SOV,
    stating the need and addressing the approach used.

    Due to the fact the contractor did not adequately include mobilization costs in its bid the
    revision of the SOV was necessary. The contractor's bid had general conditions worked into the
    construction line items. After the revision of the SOV, the general conditions were in line with
    the independent government estimate and projects of similar size, scope, and complexity. GSA
    worked with the contractor, a small business, to ensure it could fairly and accurately invoice for
    the work it had been performing. GSA/PBS is unaware of any specific process when revising a
    SOV document.…


Despite this explanation, we reaffirm our concerns about the revised SOV. GSA
provides the following guidance regarding the evaluation and approval of an SOV: 4

3
  It appears that the 50 percent completion of the General Requirements may have been derived based
on elapsed time. The planned performance time for this item was about a year. Counting from the
October 22, 2010, start date to the invoice date of April, 19, 2011, is about 6 months (6 ÷ 12, or 50
percent).
4
  PBS InSite website, Design & Construction, PM Guide, Capital Projects, VII. Construction, L. GC
Payment Requisitions, 2. GC Submission of Cost Breakdown/Schedule of Values.


                                                 5
      Soon after GSA issues a Notice to Proceed (NTP) on a project, the General Contractor (GC)
      should prepare and submit a detailed cost breakdown of the contract value. The breakdown
      should comprise a schedule of values based on the GC's cost-loaded Critical Path Method
      (CPM) schedule. The GC's schedule of values should be in sufficient detail to evaluate
      applications for payment.
      The breakdown should accurately reflect costs for each work element. The Project Team can
      refer to independent estimates or request substantiation when considering the values in a GC's
      breakdown. The breakdown should not over-value early project activities (i.e. no "front-
      loading"). Large-value work items, such as mechanical or electrical work, should be broken into
      detailed increments. Values should include material, labor, overhead and profit, although a
      separate value for bond costs is appropriate. The breakdown should be approved by GSA
      before the GC submits the first application for payment.


The General Requirements line item that was created on the revised SOV lacks
any detail that could be used to show the cost is related to any work being
performed on the project.        Further, the initial payment for the General
Requirements was made prior to the Notice to Proceed and with no documentation
supporting the payment. In view of the above, we remain concerned that this may
have been an advanced payment or front loading. This may be an area of
emphasis for contracting staff going forward.

Improper use of an unpriced modification
The FAR requires that all contract modifications, including change orders, be priced
before they are executed unless doing so would adversely affect the interests of the
Government. 5 Similarly, the GSA Acquisition Manual states that the Government can
order a contractor to proceed with work on a price to be determined later (PDL) basis if
the contracting officer determines that it is in the best interests of the Government that
the contractor proceed before negotiation of an equitable adjustment is completed. In
this case, PBS issued a PDL modification that did not establish pricing, but that does
not warrant a FAR exception or pricing on a PDL basis.

PBS issued Modification PC03 on March 8, 2011, in the Not to Exceed amount of
$453,393 for the removal of additional roof insulation. It was determined that a PDL
was justified because “testing indicated that there is more roof insulation to be removed
than indicated on the as-built drawings provided during bidding. An accurate
accounting of the quantity of additional material to be removed is not possible until the
demolition work is completed.”

However, the PDL was issued before the Construction Notice to Proceed and as a
result, there was no need for a PDL because there was no exigent need for the work to
be started prior to price negotiations.



5
    FAR 43.102(b).



                                                 6
Subsequently, PBS issued Modification PS06, effective September 15, 2011, in the
amount of $453,393 to ostensibly definitize PC03. However, PS06 added additional
roof repair work. Only $399,925 related to the original scope of PC03. The remaining
$53,468 was used for other roof repair work and included a contingency amount of
$6,343.66 for "roof repairs as project progresses."

This was not an appropriate use of the PDL process. GSA’s guidance clearly states
that the only difference between a PDL and a standard contract modification is that the
contractor is “authorized to proceed with changed work in the absence of a firm price.”
Further, awarding a line item in a change order of any type, as a contingency for work
that has not yet been identified, is inappropriate as the requirement to fulfill a bona-fide
need has not been met. 6 7

The original PDL resulted in an invalid obligation of $453,393. Although this was
subsequently corrected, the contingency amount of $6,343.66 continued to be an invalid
obligation.

In her response, the Regional Administrator acknowledged that “the PDL was awarded
improperly;” although she also pointed out that “there was a bona-fide need for the
issuance of this PDL.” According to the response:

      The file contains a justification for a PDL signed by the Contracting Officer and Supervisory
      Contracting Officer. GSA/PBS's intent was to deal prudently with the prospect of a government-
      wide funding rescission that would have jeopardized this project in mid-course, and to do so in
      accordance with the Recovery Act statutory authority to obligate, deobligate, and reobligate
      funds. However, to the extent the report identifies potential problems with the accuracy or
      completeness of the contract modification documents created to execute our business
      decisions; we welcome the findings and recommendations. As you know, these Recovery Act
      projects have unique management and funding requirements that depart from PBS's
      longstanding model.

Although the Regional Administrator asserted that there was a bona-fide need for the
issuance of this PDL, we reaffirm our position that, since the Construction Notice to
Proceed had not yet been issued, there was no exigent need for the work to be started
and no need for a PDL at the time. Additionally, the Regional Administrator’s response
does not directly address the award of the contingency line item, for which there
certainly was no bona-fide need.

Photovoltaic inverter not compliant with the Buy America Act
The Photovoltaic Inverter (Model PVS-75KW) installed by the contractor was not
compliant with the Buy American provision of the Recovery Act. Purchasing foreign
made equipment marginalizes the basic intent of the Recovery Act: stimulating the
economy.



6
    As it turns out, the $6,343.66 contingency was never used; it was subtracted from Rome’s final billing.
7
    GAO-04-261SP Appropriations Law—Vol. I.


                                                   7
Rome’s subcontractor, Russell Solar L.L.C., purchased the Photovoltaic Inverter for
$31,333. The inverter was manufactured by the Satcon Technology Corporation
(Satcon). The inverter did not have any markings indicating its country of origin, nor did
the purchase documents. However, we contacted Satcon and were informed that the
inverter was a non-Recovery Act unit manufactured in China. 8
FAR 52.225-21, incorporated into the              Figure 2 - Satcon Inverter Manufactured in China
solicitation, defines construction material as
an article, material, or supply brought to the
construction site by the contractor or
subcontractor for incorporation into the
building or work. The clause implements
section 1605 of the Recovery Act which
requires that, unless an exception applies, all
iron, steel, and other manufactured goods
used as construction material be produced in
the United States and that the contractor use
only domestic construction material in
performing the contract. 9        Neither the
contracting officer nor the contracting officer’s
representative listed any exceptions.

In her response, the Regional Administrator explained that the project team relied on
the contractor’s self-certification that all materials were compliant. However, for future
certifications of the Buy American Act, the New Jersey Service Center has been
advised that “this is not a contractor’s self-certifiable inspection…The CO and COR’s
visual inspection and product research are the normal operating procedures in GSA….”

GSA erroneously declared that Rome met its substantial completion date
The contracting officer’s representative declared that Rome met the contract’s
substantial completion date of December 19, 2011. However, documentary evidence
shows that the contractor actually missed the date by as much as a month.

Based on GSA’s guidance, substantial completion requires that essential components
and systems are available and fully operational. The original task order, dated
March 30, 2010, called for a delivery date of July 1, 2011. However, the Design Notice
to Proceed was not effective until October 22, 2010. Based on this notice, the contract


8
  Satcon no longer exists as a going concern; therefore, besides the non-Recovery Act issue, GSA needs
to investigate whether the inverter still has any type of warranty coverage. Satcon filed for Chapter 11
bankruptcy protection in October 2012. In March 2013, Chapter 7 liquidation proceedings began. As a
result of the liquidation proceedings, on September 3, 2013, China Great Wall Energy purchased all of
Satcon’s assets, including its intellectual property and patents. After the purchase, China Great Wall
Energy selected Skwentex International Corp. and its subsidiaries as the exclusive agent for inverter
sales and service. One of Skwentex International Corp.’s subsidiaries, SIC USA, Inc. then appointed
Trylon Solarshield as the exclusive provider for repairs and maintenance of Satcon’s inverters.
9
  Domestic construction material was defined in the clause as construction material manufactured in the
United States.


                                               8
completion date was determined to be November 21, 2011. Modification PS07,
effective November 18, 2011, changed the completion date to December 19, 2011.

The record shows that the contracting officer’s representative determined that Rome
met its substantial completion date based on his inspection report dated January 24,
2012, which supported Rome’s payment application number 12. His report declared “All
site construction work completed. Substantial Completion Date of 12/19/11 was met.
Close-out documents, training and coordination with building control system remain.”

However, the construction manager’s daily inspection reports reveal that substantial
completion did not occur on December 19, 2011. As a matter of fact, the December 19,
2011, report specifically concludes that aspects of the project were incomplete and that
additional days were needed. On January 17, 2012, the construction manager reported
that functional testing of the photovoltaic system would occur later that week. Finally,
on January 19, 2012, the construction manager reported that the contractor started the
commissioning test for the photovoltaic system and that, although most commissioning
items were addressed, some items remain for verification.

Although the contracting officer’s representative represented that the system was
commissioned and functioning as of December 19, 2011, functional testing did not take
place until January 19, 2012. Therefore, Rome did not meet its substantial completion
date. Rome’s contract provides for the assessment of liquidated damages of $325 per
day for failure to complete the work on time. By declaring that substantial completion
was met, the opportunity to use this contractual remedy was lost.

In her response, the Regional Administrator disagreed with this finding, essentially
saying that GSA did have beneficial use of the roof and the photovoltaic system by the
substantial completion date. According to the response:

   GSA's Contracting Officer Representative certified that the substantial completion date of
   December 19, 2011 was met, and that GSA had beneficial use of the roof, the PV system was
   operational and the building was consuming PV power. There were punch list items being
   performed after December 19th, but this did not take away from the fact that GSA benefited
   from the roofing and PV system per its intended use.

   Connecting the PV system to the Building Management System (BMS) was dependent upon
   the BMS project, which was a separate contract and out of the control of the Reroof/PV project.
   Once the BMS was in place, which was after the PV was substantially complete, further testing
   of the PV system was required to safely tie the systems together. Although the PV and BMS
   projects impacted one another they were mutually exclusive and GSA had achieved beneficial
   use of the PV roof by the substantial complete date.

   The CMs report erroneously based substantial completion date on the tie in of the BMS and PV
   projects. In fact, the use of the PV, as a standalone project was achieved by December 19,
   2011.

We reaffirm our finding because, even if functional testing is dismissed as irrelevant to a
determination of substantial completion, there is sufficient documentary evidence in the
file that contradicts the contracting officer’s representative’s assessment that the project


                                              9
was substantially complete. First, the contracting officer’s representative’s own
inspection report dated January 3, 2012, which supported Rome’s payment application
number 11, did not address substantial completion, although the December 19, 2011,
date had already passed. He wrote “100% Phase 2/3/4 roof work, 98% Phase 5 (roofs
B,D,G,R), 98% Phase 6 (roofs A,C,T,S,F,U, Q) 95% PV work and 90% of change order
work.” The contracting officer’s representative did not document substantial completion
until his next inspection report, dated January 24, 2012, effectively contradicting his
previous inspection.

Second, we disagree with the conclusion that “the CMs report erroneously based
substantial completion date on the tie in of the BMS and PV projects.” Actually, the
construction manager (CM) reported on December 19, 2011, that:
                                                         th
       Barrett roofing is continuing with detail work at 11 floor roofs “A” & “B”.
       Note: Today is the contract deadline but additional details are incomplete, additional days
       will be required.

The CM reported that the roofing contractor was not finished. According to the CM, the
roofing contractor continued to perform detail work until at least December 22, 2011.
This reported detail work appears to be more substantial than punch list items as
referred to in the Regional Administrator’s response.

Finally, we asked the contracting officer’s representative to explain how he determined
that substantial completion was met. According to his e-mail response:

       The substantial completion date was met on 12/19/11 because the roof and PV system
       were installed to a point where they were warrantiable [sic]. The pv system was
       commissioned and functioning and producing power. I'd say it is similar to beneficial
       occupancy - the space is usable with some final touches needed.

However, the referenced commissioning did not actually take place until January 24,
2012, the same day as the contracting officer’s representative’s “substantial completion”
inspection. As such, we reaffirm this finding.

Inaccurate certified payrolls
Upon review of certified payrolls submitted by Rome and its subcontractor, Russell
Solar L.L.C. (Russell), we identified several instances where the same employees were
reported on the certified payrolls of both companies on the same day. Figure 3
presents our findings.

According to the information displayed in the table:

•   Although the same individuals appeared on each company’s payroll, their individual
    job classifications and wage rates differed.
•   In every case, the combined hours worked on the same day exceeded 8 hours. For
    example, employee “DC” was reported by both companies as having worked a total



                                              10
     of 16 hours on 2 consecutive days during the week ending November 19, 2011, and
     16½ hours in a single day during the week ending October 8, 2011.
•    In two instances, total weekly hours exceeded 40, thereby mandating the payment of
     overtime. 10 However, in every case, the reported wage rate conformed to the
     minimum straight time wage as stipulated in the Davis Bacon Act wage
     determination. There was no evidence of overtime wages paid.


                   Figure 3 - Schedule of Employees Appearing on the
                      Payrolls of Two Contractors on the Same Day

                                                 Wage                                    Total
         Contractor   Employee     Position      Rate     MON TUE WED THU FRI            Hours

         Week Ending 10/08/2011
         Rome           AT      Carpenter        $75.00      8     8      8    8     8   40.00
         Russell        AT      Roofing          $65.37      0     2      0    0     0    2.00
         Combined Hrs                                        8    10      8    8     8   42.00
         Rome             DC       Laborer       $47.00      8    8       8    0     0   24.00
         Russell          DC       Roofing       $65.37      0  8.5       0    0     0    8.50
         Combined Hrs                                        8 16.5       8    0     0   32.50
         Rome             SD       Project Mgr. $30.00       4    4       4    4     4   20.00
         Russell          SD       Roofing      $65.37       0  6.5       0    0     0    6.50
         Combined Hrs                                        4 10.5       4    4     4   26.50
         Week Ending 10/29/2011
         Rome           DC      Laborer          $46.77      8    8       8    4     0   28.00
         Russell        DC      Roofing          $65.37      0  3.5       0    0     0    3.50
         Combined Hrs                                        8 11.5       8    4     0   31.50
         Week Ending 11/19/2011
         Rome           DC      Laborer          $46.77      8     8      8    8     8      40
         Russell        DC      Roofing          $65.37      8     8      0    0     0      16
         Combined Hrs                                       16    16      8    8     8      56
         Week Ending 12/10/2011
         Rome           DC      Laborer          $46.77      8     0      0    0     0       8
         Russell        DC      Roofing          $65.37      6     0      0    0     0       6
                                                            14     0      0    0     0      14


When asked for an explanation, Rome’s written response offered no explanation for
why the same employees appeared on both Rome's and Russell's payrolls. In lieu of an
explanation, Rome attempted to "make things right" by issuing payroll checks for
overtime pay and creating revised certified payrolls that purportedly eliminate some of
the overlap that was found. However, some of this “overtime pay” may have been
unnecessary, since current labor laws only require overtime pay if total weekly hours

10
  The basic overtime pay provision of the Contract Work Hours and Safety Standards Act requires
contractors and subcontractors with covered contracts to pay laborers and mechanics employed in
performance of the contracts, one and one half times their basic rate of pay for all hours worked over 40
hours in a workweek. The Contract Work Hours and Safety Standards Act applies to both contractors
and subcontractors with federal service contracts and federally funded and assisted construction
contracts over $100,000.


                                              11
exceed 40. Further, the revised certified payrolls were not convincing as they were
undated and not supported with underlying payroll records.

We spoke to Rome’s President and Russell’s Controller about this matter. In separate
conversations, they each explained that Russell needed to borrow Rome’s employees
on occasion because Russell had problems getting enough workers cleared to perform
on the project. Rome’s President also stated that Rome does not have a formal system
of accounting for its employees’ time on a job site and depends on the field supervisor
or assumes his employees are on site for 8 hours. As such, the duplicate employees on
the payroll appear to be the result of poor timekeeping by Rome, which mistakenly
recorded the employees on its own payroll on days when they actually worked for
Russell. However, this is contrary to Rome’s previous written explanation and calls into
question earlier actions by Rome to “make things right.”

In her response, the Regional Administrator stated that, although there was no evidence
of any payroll regulation or labor law violations, she acknowledges “that both the
contractor and subcontractor's inability to explain the unsupported payroll actions
demonstrated a lack of an appropriate accounting system and administrative support to
explain their processes.”

Several subcontractor employees did not have appropriate security clearances
The GSA HSPD-12 Personal Identity Verification and Credentialing Handbook requires
temporary contractors, working up to 6 months at a job site, to obtain a clearance for
their employees through a law enforcement background check or be escorted as a
provision of granting them access to non-public areas of GSA-controlled facilities.
However, on this project, at least three subcontractor employees were working on-site
without appropriate security clearances.

This project required contract employees to pass two background checks. First,
employees needed to be cleared by the Federal Protective Service Contract Suitability
Adjudication Program. The Federal Protective Service granted a preliminary and then
final clearance for each employee. After final approval was granted, the Social Security
Administration (Social Security), the tenant agency, insisted on conducting its own
background investigations prior to allowing employees to work on-site.

The clearance processes were redundant and time consuming. 11 In an effort to
expedite the clearance process, Social Security issued access cards to employees with
only preliminary Federal Protective Service clearances, with the expectation that the
final clearance would be submitted upon completion.


11
   GSA contracting officials told us that Social Security’s requirement of performing their own clearances
after completion of HSPD-12 was redundant and delayed the project. Our contract file review revealed
that this additional step did take additional time. In an e-mail sent to the contracting officer’s
representative, a Social Security official expounded on this very problem: “The biggest problem with the
whole HSPD-12 procedure is SSA. We won't give the contractor or GSA anything written that explains
our requirements. Therefore, no one knows exactly what to do, including our people.”


                                               12
Payroll records show that two roofing employees from subcontractor, Barrett Inc., and
two roofing employees from subcontractor, Russell, were on-site for multiple pay
periods without final clearances. In addition, we were not able to determine if the
preliminary clearance for one of the Russell employees was ever completed. These
employees were allowed to be on-site for up to 6 months if escorted. However, based
on the available records, we were unable to determine if the employees were escorted.

Lack of adequate security clearances for subcontractor employees could put the
occupants of the building, as well as the public, at risk.

In her response, the Regional Administrator asserted that “all security clearances on the
project were obtained in accordance with GSA’s HSPD-12 guidance and handbook” and
“there was an adequate number of cleared employees during the course of this project
to escort the employees that did not have final favorable clearance status; this is GSA's
normal business practice.”

However, as discussed in the finding, there is no documentation supporting that these
employees were actually escorted in accordance with the GSA HSPD-12 Personal
Identity Verification and Credentialing Handbook.

Finally, the Regional Administrator’s response also stated that “based on the issues
raised in the subject report, GSA/PBS will ensure that training on the proper application
of the various contract fundamentals outlined above will be made mandatory to all
Contracting Officers and Contracting Officer Representatives and will be given within
the next few months.”

If you have any questions regarding this audit memorandum, please contact me or any
member of the audit team at the following:

 Steven Jurysta         Regional IG for Auditing   steven.jurysta@gsaig.gov    212-264-8623
 Daniel M. Turkeltaub   Auditor-In-Charge          daniel.turkeltaub@gsaig.gov 212-266-3350


I would like to thank you and your staff for your assistance during this audit.




                                          13
Memorandum Distribution
Regional Administrator (2A)

Acting Regional Commissioner, PBS (2P)

Commissioner, PBS (P)

Deputy Commissioner, PBS (PD)

Chief of Staff, PBS (P)

Senior Accountable Official for Recovery Act Activities (PCBJ)

Branch Chief, GAO/IG Audit Response Branch (H1C)

Strategic Program Manager, PBS Program Management & Support Division (PCBF)

Analyst, PBS Program Management & Support Division (PCBF)

Regional Recovery Executive (2PC)

National Program Office ARRA Executive (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Northeast and Caribbean Region PBS Audit Liaison (BCPA)

Public Buildings Service Audit Liaisons (BCP)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)




                                       14
